HHS/OIG, Audit -"Review of Medicare Bad Debts at Pitt County Memorial Hospital for the Fiscal Year Ended September 30, 1999,"(A-04-02-02016)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicare Bad Debts at Pitt County Memorial Hospital for the Fiscal Year Ended September 30, 1999," (A-04-02-02016)
January 24, 2003
Complete
Text of Report is available in PDF format (666 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our review found that the hospital generally complied with the Medicare reimbursement criteria in claiming $1,500,617
in inpatient Medicare bad debts on its fiscal year 1999 cost report.  However, because of clerical errors, the hospitals
bad debts (inpatient and outpatient) were overstated by $43,396. In addition, end stage renal disease outpatient bad
debts were overstated by $6,300.  We recommended that the hospital file an amended cost report for fiscal year 1999
to reduce allowable bad debts by a total of $49,696.  We also recommended that the hospital implement automated bad
debt log procedures to reduce the likelihood of clerical errors and to ensure that all required fields are included on
the bad debt log.